DEPARTMENT OF HOMELAND SECURITY
 w7   Office of Inspector General


 TSA’s Administration and Coordination 

   of Mass Transit Security Programs 





OIG-08-66                                                                   June 2008
         TSA’s Administration and Coordination of Mass Transit Security Programs

                                         Page 1
                                                              Office of Inspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                      June 12, 2008


                                           Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency,
and effectiveness within the department.

This report addresses the strengths and weaknesses of the Transportation Security
Administration’s (TSA) oversight and assistance programs for mass transit rail, including
the Surface Transportation Security Inspection Program, the Transit Security Grant
program, the Visible Intermodal Prevention and Response (VIPR) program, and the
National Explosives Detection Canine Team Program. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.



                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Review ................................................................................................................8 


     TSA’s Inspection Program Needs a Clear Mission and Command Structure ...............8

     Recommendations........................................................................................................17

     Management Comments and OIG Analysis ................................................................18


     TSA and Mass Transit Authorities Are at Odds Over Grant Program ........................21 

     Recommendations........................................................................................................25 

     Management Comments and OIG Analysis ................................................................26 


     TSA Has Experienced Mixed Results with its Security Asset Deployments ..............27 

     Recommendations........................................................................................................32 

     Management Comments and OIG Analysis ................................................................33 


Appendices

     Appendix A:             Purpose, Scope, and Methodology.................................................... 36 

     Appendix B:             Management Comments to the Draft Report .................................... 40 

     Appendix C:             BASE Assessment Criteria ............................................................... 60 

     Appendix D:             Transit Security Grant Priorities ....................................................... 61 

     Appendix E:             Highlights of TSI Survey .................................................................. 63 

     Appendix F:             Major Contributors to this Report..................................................... 66 

     Appendix G:             Report Distribution ........................................................................... 67 


Abbreviations

     BASE                   Baseline Assessment for Security Enhancement 

     CBRNE                  Chemical, Biological, Radiological, Nuclear, and Explosive 

     DHS                    Department of Homeland Security 

     DOT                    Department of Transportation 

     FEMA                   Federal Emergency Management Agency 

     IED                    Improvised Explosive Device 

     NEDCTP                 National Explosives Detection Canine Team Program

     OIG                    Office of Inspector General 

     TSA                    Transportation Security Administration           

     TSIs                   Transportation Security Inspectors – Surface 

     TSNM                   Transportation Sector Network Management 

     VIPR                   Visible Intermodal Prevention and Response 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                   The Aviation and Transportation Security Act of 2001 gave the
                   Transportation Security Administration (TSA) responsibility for
                   security on all modes of transportation. Following the Madrid
                   train bombings of 2004, Congress directed TSA to administer
                   transit security grants and to deploy federal rail compliance
                   inspectors and canine explosive detection teams onto rail systems.
                   Congress further clarified TSA’s oversight role and operational
                   mandate in mass transit with the 9/11 Commission Act of 2007.
                   Since 2004, TSA has initiated several programs to boost mass
                   transit security. Our review focused on TSA’s management of its
                   four major assistance programs and how well these programs meet
                   the needs of the nation’s five largest mass transit rail systems.

                   TSA is improving mass transit security. It increased
                   communication with transit stakeholders, entered into agreements
                   with the Department of Transportation, and issued a sector-specific
                   security plan. TSA initiated four major programs designed to
                   mitigate vulnerabilities in mass transit rail systems. TSA created
                   the Surface Transportation Security Inspection Program to comply
                   with a Congressional mandate and to help rail transit systems
                   identify and mitigate security vulnerabilities. TSA’s Transit
                   Security Grant Program funds local security projects. TSA
                   augments transit security forces through the Visible Intermodal
                   Prevention and Response program. TSA also oversees the training
                   and deployment of canine explosive detection teams for rail.

                   TSA faces important challenges to improve transit rail security,
                   meet the needs of mass transit authorities, and comply with recent
                   legislation, which expanded TSA’s statutory authority and
                   responsibility. TSA still needs to clarify its transit rail mission and
                   develop additional regulations. It should develop memorandums
                   of understanding with local transit authorities. TSA needs to
                   improve inter-office communication and coordination. TSA also
                   needs to understand and address system-specific security
                   requirements better. We are making seven recommendations to
                   improve management and coordination of mass transit rail security
                   programs. TSA concurred with two recommendations, partially
                   concurred with three, and did not concur with two. We
                   incorporated TSA’s response to our recommendations in
                   Appendix B.
          TSA’s Administration and Coordination of Mass Transit Security Programs


                                          Page 1

Background
    Mass Transit Rail Systems in the United States
         Mass transit rail systems, which include subways and commuter rail, are
         an essential part of the United States transportation infrastructure,
         providing more than 12 million passenger trips each workday. Although
         many cities have mass transit rail systems, 96% of the nation’s passenger
         rail trips occur in eight metropolitan areas. The New York metropolitan
         area is the most heavily reliant on mass transit rail, accounting for 60% of
         all rail trips. The Washington, D.C., area has the second largest transit
         system, accounting for 8% of daily rail trips. The Department of
         Homeland Security (DHS) designates eight major urban areas with mass
         transit systems as Tier I, and the rest of the country’s urban areas as Tier II
         (see Figure 1).

         Figure 1: Urban Area Share of Mass Transit Rail Passenger Trips

                              Tier II                     Tier I
                                 4%


                                                    Washington, DC, 8%


                                                              Boston, 8%




                                                                  Chicago, 7%



                                                                 San Francisco, 5%

                                                              Philadelphia, 4%
                                                             Los Angeles, 2%
                                                           Atlanta, 2%


                                                    New York, 60%

         Source: American Public Transportation Association, 2005 Factbook

         As recent overseas attacks have shown, subway and commuter rail
         systems are inherently vulnerable to terrorism. A large system can have
         more than 100 stations, each with multiple station entrances and platforms,
         providing a terrorist numerous options for carrying out an attack.
         Passengers routinely wear bulky outdoor clothing and carry a variety of
         TSA’s Administration and Coordination of Mass Transit Security Programs


                                          Page 2

     packages or bags on board, which gives terrorists an easy way to conceal
     weapons or explosives. Limitations in current technology make screening
     millions of commuters impractical, and existing chemical and biological
     weapon sensors are only useful after an attack has already begun.

Transportation Security Administration’s Authority in Mass
Transit Rail Security
     The Transportation Security Administration (TSA) has authority and
     responsibility for security on all modes of transportation. Congress, DHS,
     and the Department of Transportation (DOT) have taken steps to address
     mass transit vulnerabilities and have enacted several directives and
     regulations (see Figure 2). These legislative and regulatory authorities
     give TSA broad powers, including the ability to inspect mass transit
     systems and deploy federal personnel onto transit systems during periods
     of increased threat. Most of these documents stress the importance of
     continued consultation and coordination with local mass transit operators.

     Figure 2: TSA Directive, Agreements, and Regulations
                             TSA Authority In Mass Transit Rail

      November 19, 2001: Aviation and Transportation Security Act. Gives TSA
      responsibility and authority over “security on all modes of transportation.” TSA retains
      this authority when transferred to DHS on March 1, 2003.

      May 20, 2004: Security Directives. Sets requirements for mass transit security,
      including designation of a Security Coordinator and TSA access to vulnerability
      assessments.*

      September 28, 2004: Memorandum of Understanding Between DHS and DOT.
      Gives DHS the overall lead for transportation security, but specifies that DOT retain
      some responsibilities. Both parties must coordinate when drafting security regulations,
      funding security projects, and sharing intelligence.

      October 18, 2004: Department of Homeland Security Appropriations Act of 2005.
      Establishes the Surface Transportation Security Inspection Program. TSA
      Transportation Security Inspectors conduct voluntary baseline security assessments and
      serve as liaisons and advisors for mass transit systems. Authorizes the use of TSA
      canines for rail systems and transfers grant allocations to TSA.**

      September 8, 2005: Annexes to the Memorandum of Understanding Between DHS
      and DOT. Requires TSA and DOT to collaborate on a number of security matters,
      including the establishment of public transportation security standards with participation
      from transit stakeholders.

      * Security Directive SD RAILPAX-04-01, May 20, 2004
      ** Public Law 108-334, (2004); House Report 108-774 (2004)




     TSA’s Administration and Coordination of Mass Transit Security Programs


                                      Page 3

      December 21, 2006: TSA Rail Security Regulations (pending final approval).
      Establishes DHS’ authority to access transit systems and their records without advance
      notice or observance of system requirements for safety training or identification.
      Requires immediate transit system notification to TSA regarding specific threats and
      security concerns.***

      May 21, 2007: TSA’s Transportation Sector Specific Plan. As required by
      Executive Order 13416, the Transportation Sector Specific Plan Mass Transit Annex
      identifies the following security goals: 1) expanding partnerships; 2) advancing the
      security baseline; 3) building security force multipliers; 4) providing information
      leadership; and 5) mitigating high consequence risk.

      August 3, 2007: Implementing Recommendations of the 9/11 Commission Act of
      2007. Introduces standards on the role of Transportation Security Inspectors, regulatory
      compliance, stakeholder relations, grants, Visible Intermodal Prevention and Response
      teams and TSA explosive detection canines.****

      *** Pending regulatory changes 49 CFR Parts 1520 and 1580, Rail Transportation
      Security; Proposed Rule, December 21, 2006, 49 CFR § 1580.5
      **** Public Law 110-53 (2007)



TSA’s Transit Rail Security Programs
     TSA has created several programs to improve mass transit rail security.
     The Surface Transportation Security Inspection Program deploys roughly
     100 Transportation Security Inspectors – Surface (TSIs) across the
     country. TSA also provides assistance to mass transit rail systems through
     the Transit Security Grant Program, the Visible Intermodal Prevention and
     Response (VIPR) program, and the National Explosives Detection Canine
     Team Program (NEDCTP).

     Within TSA, the Office of Security Operations directs the Surface
     Transportation Security Inspection Program and sends instructions to the
     TSIs through the federal security directors, to whom the TSIs report.
     Transportation Sector Network Management (TSNM) sets policy for all
     modes of transportation. TSNM’s Mass Transit Division develops
     strategies, policies, and programs to improve transit security including
     operational security activities, training exercises, public awareness, and
     technology. TSNM’s Integration division administers the Transit Security
     Grant Program, and both Integration and Mass Transit focus on seven
     Transit Security Fundamentals (see Appendix D). The Office of Law
     Enforcement operates the VIPR program, though it shares this
     responsibility with the Office of Security Operations and TSNM. The
     Office of Law Enforcement also provides TSA explosive detection
     canines to transit systems (see Figure 3).




     TSA’s Administration and Coordination of Mass Transit Security Programs


                                      Page 4

Figure 3: TSA Rail Security Programs
                              Transportation Security
                               Administration (TSA)

       Office of Security       Transportation Sector             Office of Law
          Operations            Network Management                Enforcement
             (OSO)                    (TSNM)                          (OLE)

   Operations                                                                Security
                   Field       Mass Transit                    Field
   Plans and                                   Integration                 Services and
                 Operations      Division                    Operations
   Programs                                                                Assessments

  Compliance       Federal
   Program        Security
                  Directors


                    TSIs


   Surface Transportation      Policy and       Grants         VIPR          Canine
    Security Inspection       Coordination     Program       Program        Program
          Program


         Surface Transportation Security Inspection Program

         Throughout 2005, the Surface Transportation Security Inspection
         Program deployed about 100 TSIs to field offices across the
         country. Their purpose was to inspect passenger rail systems and
         to review compliance with existing security standards and
         directives. The mission and organization of the TSIs has changed
         since the program’s creation.

         TSIs act as assessors, advisors, and liaisons. In mass transit
         systems, TSIs primarily perform Baseline Assessment for Security
         Enhancement (BASE) assessments. These assessments collect
         detailed information regarding a rail system’s implementation of
         TSA and DOT recommended security measures. TSIs help
         increase TSA’s knowledge of rail systems by responding to
         security incidents and by producing detailed profiles of a station’s
         security features (station profiles). TSIs act as regional liaisons for
         transit systems and can advise systems on the use of grant funds.
         They also participate on VIPR teams. TSIs report to a federal
         security director, generally the top TSA official at an airport, who
         may also task them with nonsurface-related activities.

         Transit Security Grant Program

         According to the American Public Transportation Association,
         most mass transit systems cannot cover their operational costs
         from passenger fares, and must rely on local taxes and federal
         grants. TSA’s transit security grants are vital for funding

TSA’s Administration and Coordination of Mass Transit Security Programs


                                 Page 5

         infrastructure hardening projects, technology, training, and
         operational costs for police patrols and explosive detection canine
         teams. The process for awarding transit security grants has
         changed every year since 2003 and continues to evolve. In
         addition to TSA grants, transit systems are eligible for other DHS
         security grants, and may use a small amount of DOT Federal
         Transit Administration grant money for security projects.

         Fiscal year 2007 Transit Security Grants exceeded $270 million
         and TSA is required to allocate these funds based on a risk-
         management approach. TSA allocates funds to metropolitan
         regions based on a risk assessment formula that includes
         intelligence and threat analysis, the number of passenger trips, the
         number and length of underwater tunnels, and other factors. TSA
         then approves individual projects through negotiations with each
         area’s Regional Transit Security Working Group, which includes
         state homeland security officials and chiefs of security from major
         transit systems. Funds are distributed with the help of the Federal
         Emergency Management Agency and the State Administrative
         Agencies.

         Visible Intermodal Prevention and Response Teams

         Since the July 2004 Democratic National Convention in Boston,
         TSA has provided supplemental personnel to assist mass transit
         systems during major events, holidays, and anniversaries of prior
         attacks. These TSA personnel deploy as VIPR teams, whose goal
         is to provide a random, unannounced, unpredictable, high-visibility
         presence in a mass transit or passenger rail environment. The level
         of assistance transit systems request depends on a transit system’s
         local political and security environment. A VIPR team may
         combine various types of TSA assets and perform an assortment of
         duties. One city used TSA screeners to augment local police
         screeners in random checks of passenger bags. Another city
         teamed federal air marshals and local transit police detectives in
         civilian clothes to observe crowds. Smaller systems have deployed
         TSA officials onto trains and buses to patrol with local police and
         canine teams. Beginning in July 2007, TSA significantly increased
         the number and frequency of VIPR deployments, from an average
         of one exercise per month to one or two exercises per week.

         National Explosives Detection Canine Team Program

         In late 2005, TSA began offering the NEDCTP to mass transit rail
         systems. This program trains and certifies explosive detection
         canine teams, which consist of one TSA-owned canine and one

TSA’s Administration and Coordination of Mass Transit Security Programs


                                 Page 6

                           local law enforcement officer. The teams conduct random patrols,
                           search unattended packages, and assist at explosive detection
                           checkpoints.

                           As of September 2007, TSA had deployed approximately 50 teams
                           to 14 mass transit systems across the nation. All teams undergo an
                           initial 10-week training course at the Lackland Air Force Base near
                           San Antonio, Texas. Following the training, teams return to their
                           transit systems to patrol, search for explosives, and provide a
                           visible deterrent. Teams train continuously and are recertified
                           annually to ensure sustained performance. In addition to the
                           donated canine and free training, the program provides
                           participating agencies an annual stipend of $40,000 per team. In
                           return, participating transit agencies agree to make their teams
                           available for temporary duty in other facilities or cities during
                           periods of heightened alert, provided the agency can spare its
                           resources.


          Implementing Recommendations of the 9/11 Commission Act
                   The Implementing Recommendations of the 9/11 Commission Act of 2007
                   (the 9/11 Commission Act) included several provisions on mass transit rail
                   security oversight and assistance that affect TSA’s four major rail
                   programs.1 These provisions reinforce certain mission priorities and add
                   some new direction.

                   The 9/11 Commission Act requires Transportation Security Inspectors to
                   assist mass transit systems with enhancing security and to possess relevant
                   transportation experience. The Act requires TSIs to conduct compliance
                   inspections and enforce applicable security regulations and directives.
                   Security standards and mission must be consistent with agreements
                   between DHS and DOT. TSA must consult with surface transportation
                   entities on TSIs’ duties, responsibilities, authorities and mission, and on
                   strategies to improve transportation security and ensure compliance with
                   security requirements. The 9/11 Commission Act prohibits DHS from
                   issuing fines to mass transit agencies unless the agency is in violation,
                   DHS has sought corrective action through written notice, and the agency
                   does not take corrective action or propose an acceptable alternative means
                   of compliance within a reasonable amount of time.2




1
    Public Law 110-53 (2007)
2
    Ibid.

                  TSA’s Administration and Coordination of Mass Transit Security Programs


                                                   Page 7

                   TSA must submit an annual report to Congress on how its Transit Security
                   Grants accomplish DHS’ transportation security goals.3 Prior to VIPR
                   deployments, TSA is required to consult with local officials to agree on
                   operational protocols, provide relevant information about the mission of
                   the team, and consult with all transportation entities directly affected by
                   the deployment.4 The NEDCTP shall create certification standards for
                   canines that TSA has not trained.


Results of Review
                   The Aviation and Transportation Security Act of 2001 gave the
                   Transportation Security Administration authority and responsibility for
                   security on all modes of transportation. Congress further clarified TSA’s
                   oversight role with the 9/11 Commission Act. Beginning in 2004, TSA has
                   increased its efforts to mitigate the vulnerability of mass transit rail
                   systems across the United States. This has been accomplished by:
                   introducing mass transit stakeholder security forums; developing
                   guidance, memorandums and directives; using its Surface Transportation
                   Security Inspection Program to provide voluntary vulnerability
                   assessments; and providing support through grants and direct operational
                   assistance.

                   TSA can improve certain aspects of each of their mass transit security
                   programs. We observed: unclear or unduly complex chains of command;
                   an unclear mission or insufficient guidance; and insufficient
                   communication. TSA needs more consistency in its interactions with
                   mass transit rail stakeholders, although it has acknowledged and attempted
                   to address some early missteps that strained stakeholder relationships.
                   Nonetheless, TSA should further integrate stakeholder expertise to
                   effectively implement its oversight and assistance programs and fulfill its
                   responsibility for mass transit security.

          TSA’s Inspection Program Needs a Clear Mission and Command
          Structure

                           Surface Transportation Security Inspection Program’s Mission
                           Needs Clarification

                           TSA has the authority to assess threats to transportation and
                           enforce security-related regulations. Because comprehensive
                           security regulations do not exist for mass transit, TSIs are hindered
                           in carrying out this mission and providing formal oversight of mass

3
    Public Law 110-53 (2007)
4
    Ibid.

                  TSA’s Administration and Coordination of Mass Transit Security Programs


                                                   Page 8

         transit rail. A compliance element would strengthen TSIs’ primary
         assessment work. By working with stakeholders to develop
         practical, enforceable, security standards, TSA can develop a
         clearer mission for its TSIs and begin to fulfill its responsibility for
         providing oversight to mass transit rail security.

         At its inception, TSA envisioned the Surface Transportation
         Security Inspection Program to be a compliance program. The
         2005 DHS Appropriations Act created the program and called for
         the deployment of up to 100 federal rail compliance inspectors.
         TSA drafted a standard operating procedure for the program in
         April 2005, which listed monitoring compliance with the May 20,
         2004, Security Directives as the program’s primary mission. In
         response to the Security Directives, stakeholders complained that
         TSA did not properly consult them during the development phase.
         Stakeholders criticized the directives as being broad, costly, and
         contradictory to DOT safety standards. Additionally, TSIs had no
         easy recourse in the event of stakeholder noncompliance. As a
         result, TSA withdrew from its attempts to enforce the 2004
         Security Directives, and instead pursued a strategy that emphasized
         collaboration on security enhancement instead of enforcement.

         Because of this new strategy, the Surface Transportation Security
         Inspection Program focused on several initiatives. The 2007-2008
         Strategic Plan for the program states that the TSIs’ primary mass
         transit responsibility is to conduct BASE assessments. Field
         performance reports confirm that a majority of TSI time devoted to
         mass transit rail focuses on these assessments and on station
         profiles. In addition to the assessment mission, TSIs act as local
         liaisons, respond to local security incidents, and act as subject
         matter experts. TSIs participate in VIPR exercises and some
         receive non-surface transportation related tasks from their federal
         security director.

         We conducted a survey of all current TSIs. In our survey, 30% of
         TSIs agreed that their mission and role in surface transportation
         security are clearly defined (see Appendix E for more details on
         the TSI survey). With regard to the BASE assessments and station
         profiles that TSIs produce, 75% of respondents said that mass
         transit systems believe such information is helpful, and 67% had
         raised security concerns that transit systems tried to address.

         However, many mass transit stakeholders questioned the
         usefulness of TSIs’ assessments because transit systems did not
         have the resources to address vulnerabilities identified in the
         assessments. Although most mass transit stakeholders spoke

TSA’s Administration and Coordination of Mass Transit Security Programs


                                 Page 9

                           highly of the professionalism and experience of many of the TSIs
                           they worked with, most were not certain how TSA was using the
                           information that TSIs were gathering. Most stakeholders said that
                           they had participated in many different TSA assessments and
                           system reviews, but unless such assessments were tied to grant
                           funding to address the vulnerabilities that TSIs had identified, they
                           had limited value.

                           Additionally, a few TSIs said that governing boards of mass transit
                           systems were not motivated to address vulnerabilities and therefore
                           TSIs needed compliance standards as a way to effect change. In
                           our survey, 84% of TSIs believed that the authority to issue
                           citations for violations of security regulations was necessary to do
                           their job effectively. The 9/11 Commission Act gave DHS
                           authority to issue fines to mass transit agencies if the agency is
                           found to be in violation, DHS has sought corrective action in
                           writing, and the agency does not make acceptable changes.5

                           Compliance, assessments, and stakeholder support are all missions
                           of the TSI program. The 9/11 Commission Act states that TSIs
                           should be used to “assist surface transportation carriers, operators,
                           owners, entities, and facilities to enhance their security against
                           terrorist attack and other security threats and to assist the Secretary
                           in enforcing applicable surface transportation security regulations
                           and directives.”

                           However, TSA still has not developed specific comprehensive
                           compliance regulations for mass transit systems to follow and TSIs
                           to enforce. The September 8, 2005, Annex to the Memorandum of
                           Understanding between DHS and DOT requires TSA and DOT to
                           consult with one another to establish regulations and security
                           standards for transit systems with participation from appropriate
                           transit stakeholders. The parties have agreed to update standards
                           over time, taking into account information on available
                           technologies, threats to transit systems, and other pertinent
                           information. DOT and TSA began the process of establishing
                           standards after the issuance of the Annex, but the effort has not
                           produced any consensus standard yet. However, TSA projects that
                           multiple consenus standards will be developed later in 2008.

                           TSA’s best option for establishing an effective oversight program
                           is to reengage in a consultative process to develop compliance



5
    Public Law 110-53 (2007)

                  TSA’s Administration and Coordination of Mass Transit Security Programs


                                                  Page 10

                         standards, as required by the Annex.6 DHS’ oversight role in mass
                         transit security is relatively new and much expertise in mass transit
                         is concentrated in DOT and with mass transit system stakeholders.
                         The American Public Transportation Association, a nonprofit
                         organization whose membership includes most of the major mass
                         transit rail system stakeholders, has a Project Management Team
                         for Standards and Research. This is the logical forum for
                         developing TSA’s security standards, because it includes TSA,
                         DOT, all Tier I mass transit systems, and state departments of
                         transportation, as well as transit unions.

                         In addition, TSA needs to reconcile the assessment and compliance
                         facets of the Surface Transportation Security Inspection Program.
                         Assessments are essential, but TSA also has a mission to advance
                         the security baseline. The BASE assessment’s purpose includes
                         identifying programs and protocols that might be effective models
                         for other systems. Grant funding based on assessments would be
                         an effective incentive to improve security, but compliance
                         regulations based on assessments are needed as well.

                         Command Structure Inhibits TSI Effectiveness

                         Surface Transportation Security Inspector priorities are set by
                         numerous entities that do not fall into the same chain of command.
                         TSIs must respond to taskings from multiple federal security
                         directors and multiple headquarters components, and these taskings
                         frequently focus on divergent objectives. Because of their
                         command structure, TSIs are pulled in multiple directions and find
                         it difficult to complete long-term objectives in mass transit
                         systems. TSA is not benefiting from or building on the
                         institutional knowledge and expertise of the TSIs. Returning the
                         program to direct headquarters supervision, as it was prior to
                         December 2006, would enable TSA to manage the TSI program
                         better.

                         TSA initially managed its TSIs from headquarters. TSIs are
                         organized into 11 supervisory offices and 10 satellite offices in
                         cities with large mass transit systems or heavy freight rail traffic
                         (see Figure 4). These field offices previously reported directly to
                         the Office of Security Operations’ Compliance Program at TSA
                         headquarters.



6
 Memorandum of Understanding Between the Department of Homeland Security and the Department of
Transportation on Roles and Responsibilities Concerning Public Transportation Security, September 28,
2004; the Annex to the Memorandum of Understanding, September 9, 2005

                TSA’s Administration and Coordination of Mass Transit Security Programs


                                                Page 11

         Figure 4: TSI Field Offices




         On December 20, 2006, TSA realigned each TSI – Surface field
         office under the authority of the federal security director at a local
         airport. Federal security directors are the highest-level TSA
         officials at an airport and provide operational leadership for
         transportation security responsibilities within an airport. The
         justification for this reorganization was to accommodate an
         increasing focus on hazardous material security issues, expanded
         compliance inspections, and outreach and liaison efforts with
         industry stakeholders to ensure that they understand and implement
         recommended security action items. However, this realignment
         left the Office of Security Operations’ Compliance Program in
         charge of the Surface Transportation Inspection Program, just not
         in charge of the TSIs themselves.

         Due to the realignment, TSIs can receive assignments from
         multiple sources including the Office of Security Operations’
         Compliance Program, the local federal security director, other
         federal security directors in the region, TSNM at headquarters,
         and, in the case of VIPR exercises, the Office of Law Enforcement.
         These assignments and taskings often reach the TSIs through
         circuitous routes.

         For example, when TSNM initiates a new program or requirement,
         instructions pass informally to the section chief for Surface
         Transportation Security Inspections in the Office of Security

TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 12

                   Operations’ Compliance Program. The section chief then more
                   formally makes a request to the director of the Office of Security
                   Operations. The director tasks the federal security directors who
                   supervise the supervisory TSIs in the field (see Figure 5). In
                   practice, because the section chief holds weekly conference calls
                   with the supervisory TSIs to discuss priorities and share
                   information, the supervisory TSI often informs the federal security
                   director about headquarters mandates. These individuals must
                   work together to assign resources, which might fall in the
                   administrative jurisdiction of another federal security director.

                   Figure 5: How Tasks Pass to TSIs
                              Transportation Security
                               Administration (TSA)
                                                                                                4
                                                                                                The head of OSO gives
                                                                                                instructions to the head of
             Transportation Sector                         Office of Security                   Field Operations who sends
                                                                                                tasks through Nethub to
             Network Management                               Operations                        multiple Federal Security
                   (TSNM)                                        (OSO)                          Directors


1                                                                                Field                  5
                          3                                                    Operations               Federal
Passenger rail            The Chief of                  Operations                                      Security
programs can be           Compliance                    Plans and                                       Directors pass
                                                                                   Federal
initiated by              Program —                     Programs                                        instructions to
                                                                                  Security
TSNM’s upper              Surface                                                                       their Assistant
management or             Transportation                                          Directors             FSDs
by the General            passes
Manager or                instructions to his
Deputy GM of the          supervisor, who,           Compliance                            Assistant
Mass Transit              in turn, passes             Program                               FSDs               6
Division                  them to a
                          supervisor, who                                                                      11 TSI
                          passes them to                                              TSI
                     managers, who
                          the head of OSO            Compliance                     Managers
                  are either
                                                                                                               Assistant FSDs
                                                      Program —                             Deputy             or Deputy
                                                                           Assistant
               Mass Transit                             Surface                            Assistant           Assistant FSDs
                                                                            FSD —
                Division                            Transportation                          FSD —              finally task the
                                                                            Surface
                                                                                            Surface            TSIs
              Informally, instructions are passed
         2    from the Mass Transit Division to the 

              Chief of Compliance Program —
                         TSI    TSI      TSI      TSI   TSI
              Surface Transportation
                                 s      s        s        s     s


                   Federal security directors may also initiate assignments locally, 

                   meaning they are not nationally coordinated. In our survey, 65% 

                   of TSIs disagreed with the statement that their federal security 

                   directors and TSA headquarters officials coordinate well with each 

                   other. Only 30% believed they have sufficient direction and 

                   information from their chain of command to do their jobs 

                   effectively. 



       TSA’s Administration and Coordination of Mass Transit Security Programs


                                                Page 13

         Although the goal of the December 2006 reorganization was to
         expand compliance inspections and liaison with industry
         stakeholders, in practice it is weakening TSA’s expertise in mass
         transit rail security. TSA designated the 11 field supervisory TSIs
         as Assistant Supervisory Federal Security Directors for Surface
         Transportation and placed them under one of the local federal
         security directors at an airport in their primary city. Many TSIs
         said that TSA’s decision compromised specialized rail experience
         and would ultimately undermine relationships that TSIs have built
         with mass transit rail stakeholders. Some TSA management
         officials at headquarters agreed with this assessment.

         Many TSIs said that federal security directors have moved aviation
         inspectors without any rail experience into surface inspector
         positions. TSA officials also said that federal security directors
         have been hiring individuals who did not have sufficient relevant
         surface transportation experience for TSI positions. Some federal
         security directors assign TSIs to shifts in support positions in
         aviation, such as filling in for TSA screeners by observing exit
         lanes at airports. TSA hiring practices under the Surface
         Transportation Security Inspection Program were not part of our
         scope, and we did not assess the extent of under qualified and
         underutilized TSIs. However, such practices conflict with the
         requirement of the 9/11 Commission Act that states TSIs should
         have “relevant transportation experience” and are to be used “to
         assist surface transportation carriers, operators,… and facilities to
         enhance their security.”

         Most TSA officials involved in surface transportation say that the
         previous placement of the TSIs under direct headquarters
         supervision worked well. While many of the TSIs have high
         regard for their supervisory federal security director, only 4% said
         they preferred to retain the current chain of command. The
         remaining TSIs considered the optimal arrangement for their
         program to be a unified chain of command, with TSIs reporting to
         their current regional Supervisory TSIs, who would report to a
         headquarters component with authority over surface transportation.
         Many of the headquarters officials we interviewed also supported a
         dedicated headquarters surface transportation component
         overseeing the TSIs. Several TSA officials said that TSA
         headquarters successfully manages other field programs including
         the NEDCTP, the Federal Air Marshals, the Office of the Chief
         Counsel, and media relations.




TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 14

         TSA Needs To Coordinate its Communication Efforts

         TSA policymakers and TSIs both conduct substantial outreach
         with mass transit and passenger rail systems. However,
         policymakers do not consistently give sufficient information to
         TSIs, so mass transit officials do not view TSIs as a viable
         communication link to TSA headquarters. Furthermore, not all
         TSA policymakers have full access to TSI work products. TSNM
         and the TSI program should address these deficiencies that weaken
         what would otherwise be one of TSA’s strengths in mass transit
         security.

         Both TSNM and the Surface Transportation Security Inspection
         Program share responsibility for fostering communication with
         transit stakeholders. TSA’s division for policy and coordination,
         TSNM, has several ongoing initiatives requiring communication
         with stakeholders. It has established forums, such as the Mass
         Transit Sector Coordinating Councils, where Mass Transit
         Division representatives meet with mass transit general managers
         to discuss rail security priorities. TSNM and DOT hold biannual
         Transit Safety and Security Roundtables with mass transit security
         chiefs to discuss initiatives such as training, public awareness
         campaigns, and emergency drills. TSNM Integration holds
         Regional Transit Security Working Groups to negotiate
         agreements on a region’s Transit Security Grant applications.
         Additionally, TSNM Mass Transit Division holds a monthly Peer
         Advisory Group conference call with transit security chiefs, and
         periodic in-person conferences with the group to discuss mass
         transit programs (see Figure 6).




TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 15

           Figure 6: TSA / Stakeholder Communication
    Transportation Sector Network
                                                                  Transit Systems
        Management (TSNM)


    Mass Transit
                          Integration                     General Managers   Chiefs of Security
     Division


                                        Mass Transit Sector
                                          Coordinating 

                                             Council


                                        Transit Policing and 

                                           Security Peer 

                                          Advisory Group


                                         Regional Transit 

                                         Security Working
                                             Groups





                                           TSA TSIs
Communication Flow




           TSIs in the field also conduct thousands of hours of stakeholder
           outreach each year. Often, this occurs through less formal
           interactions than the TSNM communication. TSIs routinely hold
           personal meetings with mass transit officials and attend
           stakeholder conferences or events. Maintaining good working
           relationships with mass transit personnel is an essential part of a
           TSIs job, and many stakeholders view their local TSIs as the face
           of TSA.

           Despite these efforts, the need for more coordination between
           TSNM at headquarters and the TSIs in the field has affected the
           flow of information to and from stakeholders. TSNM and TSIs
           share responsibility for stakeholder outreach, but TSIs said that
           TSNM does not always give them sufficient information about its
           policy initiatives and grant processes. Stakeholders expressed
           confusion on a number of TSA programs and guidelines, including
           the VIPR and grant program, but many said TSIs did not have
           enough helpful information. Many of the TSIs we interviewed
           agreed, saying that this situation limited their credibility with
           stakeholders.

           According to several TSIs, TSNM has not always included them in
           local meetings between TSNM and mass transit agencies,
           specifically Regional Transit Security Working Groups and Peer
           Advisory Groups. Supervisory TSIs reported that their omission

TSA’s Administration and Coordination of Mass Transit Security Programs

                                 Page 16
         from these forums affected their ability to advise and liaise with
         stakeholders. The reasons for these omissions were not clear.

         In our survey, 29% of TSIs said that state officials and transit
         authorities perceive that there is cooperation and coordination
         between TSA headquarters and TSIs. When asked whether TSA
         headquarters personnel involve local TSIs in planning and holding
         meetings in their jurisdiction, 19% of TSIs said they had been
         included.

         Additionally, information from TSIs is not always available to
         TSNM personnel. Although TSIs in the field regularly transmit
         their reports to TSA Headquarters, several TSNM employees
         involved in analyzing security threats and vulnerabilities said that
         they do not have direct access to TSIs BASE assessments, station
         profiles, and other reviews. This makes it difficult for TSNM to
         administer its security programs using a risk-management
         approach. The sensitive nature of these documents should not
         preclude TSNM employees from being able to use them.

         Despite assurance given by TSA officials that individuals do have
         access to appropriate information and that TSIs are informed of
         meetings, we remain concerned that TSA is not fully leveraging its
         assets in the field, putting both TSIs and mass transit officials at a
         disadvantage. To serve as effective liaisons between TSA
         headquarters and mass transit agencies, TSIs should be aware of
         information TSNM is passing on to transit agencies. TSNM
         headquarters personnel and TSIs in the field need to improve
         internal communication, so that mass transit officials can
         consistently rely on TSIs as an information resource.


Recommendations
         We recommend that the Administrator of the Transportation
         Security Administration:

         Recommendation #1: Place the Transportation Security
         Inspectors – Surface under the direct authority of a TSA
         headquarters official who is responsible for surface transportation,
         such as the Office of Security Operations’ Assistant General
         Manager for Compliance.

         Recommendation #2: Direct TSNM to provide TSIs information
         and updates on the rail-related programs. Invite TSIs to local
         meetings with stakeholders. Instruct the Office of Security

TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 17

         Operations’ Compliance Program to make all TSI assessments and
         profiles available to employees of TSNM.

         We recommend that the Assistant Administrator of the Office of
         Transportation Sector Network Management:

         Recommendation #3: Develop specific, feasible security
         standards for mass transit systems. Incorporate applicable TSI
         assessments, and consult with DOT and relevant transit
         associations, such as the American Public Transportation
         Association, when developing these standards.


Management Comments and OIG Analysis
         TSA provided written comments on our draft report. We evaluated
         these comments and have made changes where we deemed
         appropriate. Below is a summary of TSA’s written response to the
         report’s first three recommendations and our analysis. A copy of
         TSA’s complete response, with our general management
         comments, is included as Appendix B.

         TSA’s Comments to Recommendation #1:

         TSA did not concur with the recommendation. TSA described the
         history of the Surface Transportation Security Inspection Program
         and summarized the current organizational structure of the
         program. TSA also described the various avenues for
         communication among all of the TSA components that interact
         with the TSIs at headquarters and in field offices. TSA stated that
         in December 2007 it reviewed the reporting structure of TSIs and
         had taken steps in recent weeks to “strengthen and clarify” TSI
         reporting lines, including “clearer definitions of roles and oversight
         responsibilities” of the program and the Federal Security Directors.

         OIG Analysis: We are aware of TSA’s December 2007 review.
         That review recommended that TSIs report directly to a
         headquarters official responsible for surface transportation.
         However, TSA never implemented this organizational structure.
         We maintain that the TSIs should be placed under direct
         headquarters supervision, at least until the program is more
         developed and field operations have been restructured to reflect the
         complexities of managing multiple transportation modes. Only
         four percent of the TSIs consider the current structure viable, and
         many of the headquarters officials we interviewed also support a


TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 18

         dedicated headquarters surface transportation component
         overseeing the TSIs.

         It is not clear whether TSA has a viable alternative to address this
         issue. In its action plan, TSA should provide additional
         information describing how it has improved reporting lines.

         This recommendation is Unresolved - Open.

         TSA’s Comments to Recommendation #2:

         TSA concurred in part with the recommendation. TSA stated that
         it provided TSNM with “full and unfettered” access to the BASE
         assessments and station profiles, and had not denied a TSNM
         request for access to the assessments. However, TSA stated that
         within TSNM, access to the assessments is on a “need to know”
         basis to prevent negligent disclosure of sensitive information. It
         also reported that several methods exist that allow TSNM to
         provide TSIs with information and updates on the rail-related
         programs. Separately, TSA provided the names of individuals in
         TSNM who have “need to know” access to BASE assessments.
         TSA stated, “No [TSNM Integration] personnel have direct access
         to the BASE results reports and station profiles. As their duties
         warrant, TSNM Integration personnel may review these materials
         by coordinating with TSNM Mass Transit staff.”

         TSA provided an extensive description of methods for improving
         communication between TSIs and other TSA offices. Those
         methods include weekly or biweekly conference calls, annual
         briefings on grant guidance, TSI participation in grant panels,
         TSNM participation in STSIP meetings and annual national
         conferences, participation in a Mass Transit Security Information
         Network, daily headquarters communication, coordination between
         TSNM and the TSOC, and TSI participation in security standards
         meetings and in joint quarterly threat and analysis briefings. TSA
         concluded that TSNM Mass Transit “generally attempts to
         coordinate engagement with stakeholders through the TSIs,” and
         provides examples of when such coordination occurred.

         OIG Analysis: TSA’s description of access to TSI assessments is
         partially responsive to our recommendation. However, we are
         concerned that TSNM Integration staff members, including the
         TSNM Integration General Manager, do not have direct access to
         TSI assessments. Our concerns stem from the fact that TSNM
         Integration officials negotiate directly with mass transit systems on
         grants, often without TSNM mass transit officials present. These

TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 19

         grants exceeded $300 million in FY 2008. We also remain
         concerned that TSNM only “generally attempts” to coordinate
         engagement with stakeholders through the TSIs. TSIs are the face
         of TSA for stakeholders, and failure to coordinate engagements
         through them to the fullest extent possible reflects less than
         desirably on TSA.

         In its action plan, TSA should provide evidence of a policy
         memorandum or other guidance that demonstrates that TSI
         assessments are available to all TSNM staff involved in threat and
         intelligence assessments, and all senior TSNM Integration staff
         involved in the development of grants. The action plan should also
         describe a process for coordinating stakeholder communication
         more effectively; and provide a memorandum, policy guidance, or
         standard operating procedure documenting communication and
         notification requirements.

         This recommendation is Resolved - Open.

         TSA’s Comments to Recommendation #3:

         TSA did not concur with the recommendation. TSA stated that the
         recommendations to consult with DOT, APTA as well as other
         federal law enforcement and intelligence entities were already in
         practice.. TSA stated that it currently participates, along with the
         DOT Federal Transit Administration, in the APTA security
         standards development process that began in January 2006. TSA
         described in some detail the nature of its participation in this
         forum, and plans for additional initiatives. TSA also provided
         extensive comments on its cooperation with federal security
         partners and mass transit and passenger rail communities, and
         provided examples, such as the BASE reviews and Security
         Measures for Transit Tunnels that have increased the security
         baseline. TSA stated, “[because] these products reflect some of the
         most effective practices in the mass transit and passenger rail
         community, this effort is akin to standards development.”

         OIG Analysis: We applaud TSA’s efforts in increasing the
         security baseline, but we disagree that voluntary compliance with
         security best practices is the same as mandatory compliance with
         security standards and regulations. The 9/11 Commission Act
         requires compliance inspections and enforcement of security
         regulations and directives, and TSA has not yet promulgated these
         regulations. Although we agree with TSA’s observations about its
         accomplishments absent regulations, which are described in our


TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 20

              report, we identified areas in which regulations would make TSA
              more effective.

              In its action plan, TSA should explain its progress toward
              developing security regulations and directives, as well as its
              collaboration with FTA and APTA.

              This recommendation is Unresolved - Open.


TSA and Mass Transit Authorities Are at Odds over Grant
Program
     TSA and stakeholders disagree on the best approach for allocating funds
     and prioritizing projects for the Transit Security Grant Program. As a
     result, TSA has made numerous changes to the grant award process, but
     has not yet developed a workable solution. These changes have frustrated
     stakeholders, who have raised numerous concerns about TSA’s
     inconsistent and unpredictable processes, its negative effect on regional
     cooperation, and its inability to integrate asset-specific risk into its
     assessment methodology. Under the 9/11 Commission Act, TSA is
     required to report how its grant awards address national transportation
     security goals, but TSA’s current strategy of negotiated agreements may
     not provide sufficient documentation to evaluate the basis for TSA’s grant
     decisions. A process for incorporating asset-specific risk assessments into
     grant decisions and a forum for stakeholders to evaluate whether TSA’s
     grant strategy addresses their highest priority security needs, would enable
     TSA to develop a more objective and responsive grant process.

     Until 2005, transit systems received security funding through the
     Department of Homeland Security’s Urban Area Security Initiative grant
     program. Subsequently, the department established the Transit Security
     Grant Program to address the needs of transit systems (see Figure 7). TSA
     assumed responsibility for grant award decisions in the fiscal year 2006
     grant cycle. In its first year of stewardship, TSA made grant award
     decisions through a competitive process. TSA initially allocated funds to
     a metropolitan region, based primarily on that region’s ridership. Then
     each region’s Regional Transit Security Working Group decided how
     much money each transit system would receive. Transit systems
     submitted as many as five Regional Working Group-endorsed grant
     requests to TSA. A panel that included officials from TSA TSNM, the
     Federal Emergency Management Agency (FEMA) National Preparedness
     Directorate, and DOT Federal Transit Administration then approved
     projects.



     TSA’s Administration and Coordination of Mass Transit Security Programs


                                     Page 21

Figure 7: DHS Grants for Mass Transit Systems, FY 2003-07
                    FY 2003            FY 2004            FY 2005          FY 2006            FY 2007

                    Urban Area         Urban Area          Transit        Infrastructure     Infrastructure
                      Security           Security       Security Grant      Protection         Protection
     Grant        Initiative Grant   Initiative Grant     Program            Program            Program
    Program
                                                                         Transit Security   Transit Security
                                                                         Grant Program      Grant Program

    Amount                                                                                   $171 + $100
                        $65                $50              $150              $143
                                                                                             supplemental
  (in millions)
                   Office of          Office of         Office of
 Administrator     Domestic           Domestic          Domestic              TSA                TSA
                   Preparedness       Preparedness      Preparedness
                   None, direct       None, direct       Yes, through     Yes, through       Yes, through
     State        to Stakeholder     to Stakeholder         State            State              State
  Involvement                                           Administrative   Administrative     Administrative
                                                           Agency           Agency             Agency

                   Competitive        Competitive        Competitive      Competitive        Cooperative
   Application     applications       applications       applications     applications       agreement



Both TSA officials and stakeholders were displeased with the fiscal year
2006 grant cycle, but for different reasons. At the beginning of the fiscal
year 2006 grant cycle, grant guidance allowed transit systems to fund
projects that fell within one of six categories, including infrastructure and
tunnel hardening, prevention and detection of nonconventional weapons,
emergency drills, citizen awareness campaigns, employee training, and
system-specific risk mitigation. After stakeholders submitted their fiscal
year 2006 grant applications, TSA changed grant priorities to give the
highest priority to training transit employees, and said the only remaining
high priority category would be protection of underground and underwater
tunnels. Stakeholders reported that, due to changed priorities, TSA denied
projects that fell within the original application guidelines. Additionally,
some partially completed projects from previous grant cycles were
unfunded because of these changes.

Stakeholders expressed frustration that TSA’s changing priorities made it
difficult to plan security expenditures. Stakeholders also said that TSA set
unreasonable deadlines for submitting proposals and that TSA’s
performance period of 36 months for spending awarded grant money was
unrealistic, given rigorous and time-consuming state and city contract
requirements. At the same time, stakeholders observed that TSA’s grant
award process was markedly slower and more cumbersome than other
federal grant programs. At the time of our review, states were still
awaiting decisions on fiscal year 2006 applications totaling almost $40
million. Some identified the need for an online application tracking
process as a contributing factor.



TSA’s Administration and Coordination of Mass Transit Security Programs


                                       Page 22

TSA officials said that they were displeased with the fiscal year 2006
cycle because Regional Transit Security Working Groups did not allocate
spending decisions based on risk, and project proposals did not address
TSA’s priorities. Instead, many Regional Transit Security Working
Groups chose to divide funds so that most systems, regardless of size or
risk, received at least one funded project. High-level TSA officials,
including the Administrator and Deputy Administrator, became directly
involved in communicating grant priorities and negotiating grant projects.

During 2006, TSA did not integrate asset-specific information into grant
guidelines and priorities. Many state homeland security and transit
security officials said that TSA’s risk management approach did not
account for differences in the infrastructures and needs of cities and their
transit systems. For example, several transit officials said that TSA’s
decision to set journeyman training as the highest TSA priority overlooked
extensive in-house training, which already met security needs. Some
stakeholders said they had the impression that grant priorities were being
set by political appointees, rather than by subject matter experts with
knowledge of the region. Senior TSNM officials said that priorities were
being set at a high level within DHS and were based on a preference for
visible activities, such as training and security patrols.

For the 2007 grant cycle, TSNM developed a new approach to grant
prioritization for Tier I systems, which officials refer to as a negotiated
cooperative agreement. Previously, the Regional Working Groups for the
Tier I regions delegated spending decisions to each individual transit
system in the region. This year, TSA is working with the Regional
Working Groups to identify the most significant risks in the region, and
pool regional grant funding to address these risks in order of importance.
TSA plans to make funding decisions based on negotiations with each Tier
I regional working group, rather than setting general guidelines and
relying on a federal panel or a peer review by transit security officials to
grant awards based on eligibility.

Stakeholders are willing to try TSA’s strategy of a negotiated cooperative
award process, but concerns remain. The system still requires Regional
Working Groups to submit proposals, both for the fiscal year 2007 grants
and for a supplemental grant announced in August 2007. Deadlines for
submitting supplemental proposals were initially two weeks. However,
Tier I system managers complained that preparing a submission in two
weeks was unreasonable. TSA responded to transit agency concerns by
extending the deadline for Tier I systems to four months. Additionally,
transit systems still did not have decisions on all fiscal year 2006
proposals to help plan their projects. Several stakeholders expressed
frustration about being invited to submit proposals on any of seven TSA
grant priorities, when TSA has denied applications that fell clearly within

TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 23

the guidelines in the past (see Figure 8). Some state homeland security
officials expressed frustration that TSA does not support investment in
complex infrastructure-hardening projects, by not guaranteeing multiyear
funding. Without the ability to plan for the long term, states will request
funding for operational costs and off-the-shelf technologies such as
closed-circuit television cameras, which may not mitigate as much risk as
projects that are more ambitious.

Figure 8: TSA Grant Priorities
   • Protection of high risk/high consequence underwater/underground assets and systems;
   • Protection of other high risk/high consequence assets and systems that have been
     identified through system-wide risk assessments;
   • Use of visible, unpredictable deterrence;
   • Targeted counter-terrorism training for key front-line staff;
   • Emergency preparedness drills and exercises;
   • Public awareness and preparedness campaigns; and
   • Efforts in support of the national preparedness architecture (regional collaboration and
     communication, response plans).

Many stakeholders had reservations about TSA’s plans to determine
regional funding priorities through stakeholder consensus. They
envisioned that the large transit agencies in a region would receive most, if
not all, of the grant money, and smaller agencies would receive nothing.
Many of the bigger transit agencies would rather forgo a larger share of
TSA funding in order to preserve good relationships with their smaller
regional partners. Several officials commented that the relatively small
pool of grant money was not worth the cost of resentment from the small
transit systems. Most regional homeland security officials said that
because they receive funding from several DHS grant programs, from
DOT, and from state sources, they could reallocate other resources to
restore balance among mass transit systems and fund their own highest
priorities, essentially nullifying the effect of TSA’s cooperative system.

Stakeholders expressed skepticism regarding TSA’s commitment to
establishing truly consensus-driven risk and funding priorities. In some
regions stakeholders said that TSA has tried to negotiate separately with
larger transit systems in the region, rather than working solely through the
Regional Transit Security Working Group. Some stakeholders fear that
cooperative agreements will enable TSA to control the Regional Working
Group and ignore regional priorities.

Although cooperative agreements may aid TSA in learning about the
asset-specific needs of stakeholders, the grant process still needs to
incorporate asset-specific assessments of risk, as required by the
Transportation Sector-Specific Plan. The Plan requires TSA to evaluate
threats, vulnerabilities, and consequences against each asset and develop


TSA’s Administration and Coordination of Mass Transit Security Programs


                                 Page 24

countermeasures at the asset level. These assessments are needed to verify
the concerns of stakeholders and substantiate the priorities of TSA.

TSIs can provide asset-specific information for the grants program. They
conduct formal assessments of mass transit rail systems, have access to
vulnerability and risk assessments conducted by mass transit systems, and
develop considerable asset-specific information through routine
consultation. Their contribution could verify the determinations of
stakeholders and provide transparent substantiation for TSA decisions.
However, TSA does not systematically incorporate this information into
its grant assessment or prioritization process.

In addition, the fiscal year 2007 process may not generate an adequate
written record of how grants were prioritized and awarded. TSA will
decide grants for Tier I regional working groups through high-level
negotiations with stakeholders. The TSA negotiators will not be operating
from the same system-specific risk assessments as the regional working
group members who participate in the negotiations. Awards may not be
based on objective grant eligibility criteria. In these circumstances, there
is a possibility that decisions might be personality-driven, that negotiations
will be protracted, or that they will stalemate.

Without objective criteria for grant awards or a transparent process, it will
be difficult for an outside observer to determine how and why TSA and
the regional working group reached a decision. While we do not
recommend that TSA disrupt its current grant cycle, TSA should use all of
the risk information it has available, including information gathered by
TSIs, to develop grant eligibility criteria and to enhance grant decision-
making. The grant process should accommodate asset-specific grant
priorities that recognize differences in vulnerabilities by region and transit
system. It should also be sufficiently transparent that an independent
observer can verify how TSA officials made grant decisions that were
negotiated directly with regional working groups.


Recommendations
         We recommend that the Administrator of the Transportation
         Security Administration:

         Recommendation #4: Develop procedures for incorporating
         asset-specific risk and vulnerability assessments, including
         information provided by TSIs, into the grant decision-making
         process and grant guidance. Designate a TSI from each major field
         office to provide updates to TSNM on the status of grant projects.


TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 25

         Recommendation #5: In TSA's annual report to Congress on how
         it used grants to implement its transportation security goals, TSA
         should include each grant recipient’s assessment of the grant
         application and award process.


Management Comments and OIG Analysis
         TSA’s Comments to Recommendation #4:

         TSA concurred with the recommendation. TSA reported that it
         was using asset-specific security assessments, including
         information provided by TSIs, in the grant decision-making
         process and grant guidance. TSA also agreed that use of the TSIs
         to provide grant oversight would be a key component of the overall
         approach to mass transit security. TSA stated that TSNM and
         OSO were working together to develop a plan for this new TSI
         activity.

         OIG Analysis: We consider these actions responsive to our
         recommendation. In its action plan, TSA should provide
         documentation verifying the incorporation of asset-specific
         assessments into the grant process, and a draft plan for the use of
         TSI’s to verify grant oversight.

         This recommendation is Resolved - Open.

         TSA’s Comments to Recommendation #5:

         TSA concurred in part with this recommendation. TSA stated that
         including assessments from every eligible mass transit agency
         would “prove unduly time-consuming and burdensome.” TSA
         proposed providing Congress a summary of applicant feedback
         with pros and cons.

         OIG Analysis: We encourage TSA to provide a summary of
         applicant feedback, analysis or any additional relevant documents
         with its annual report to Congress. However, each grant
         recipient’s assessment of the grant application and award process
         should also be included. TSA should provide our office with a
         copy of its first annual report to Congress, when it becomes
         available.

         This recommendation is Resolved - Open.



TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 26

TSA Has Experienced Mixed Results with its Security Asset
Deployments
     TSA provides security assistance to mass transit systems through two
     programs: the VIPR teams and the National Explosives Detection Canine
     Teams. TSA’s initial VIPR deployments would have benefitted from
     more precise planning, better consultation, and more use of local expertise
     and knowledge. The initial exercises occupied local law enforcement
     resources and strained relations with state and local homeland security
     officials. TSA has taken appreciable measures to strengthen coordination
     and protect the identity of participating federal air marshals. TSA should
     develop Memorandums of Agreement with individual mass transit systems
     to enhance VIPR’s effectiveness.

     Participants in TSA’s NEDCTP consider the program well run and
     responsive, and approve of TSA’s training and the quality of TSA dogs.
     TSA may increase participation in the program by considering alternatives
     to its requirement that handlers attend a 10-week training course in Texas,
     and by assisting smaller agencies, which do not have existing canine
     programs, to cover extensive start-up costs.

              The Visible Intermodal Prevention and Response Program

              The VIPR Program experienced numerous problems during its
              early deployments. During the July 4, 2007 holiday week, TSA
              headquarters launched simultaneous VIPR exercises in New York,
              Boston, San Francisco, Chicago, Washington, DC and several
              other major mass transit cities. According to almost everyone we
              interviewed, TSA did not effectively communicate the timing,
              procedures, and rationale of the deployments with its own
              personnel or transit authorities. As a result, most of the early
              deployments generated controversy among TSA field offices, state
              homeland security officials, and mass transit officials. TSA has
              since addressed many of these concerns, but mass transit agencies
              would be more willing participants in the program if they had
              system-specific agreements with TSA.

              Issues with Early VIPR Deployments

              TSA gave little warning to its field personnel and mass transit
              stakeholders. For the July 4 holiday deployments, TSA field
              officials received notice of the exercise on the weekend before the
              holiday, and many said they were embarrassed to ask the transit
              systems to accommodate the VIPR directive on such short notice.
              Tensions developed between some federal security directors and
              federal air marshal special agents in charge over which TSA

     TSA’s Administration and Coordination of Mass Transit Security Programs


                                     Page 27

         official had the lead. When asked why TSA deployed VIPR teams
         on short notice, several TSA officials said that they were testing
         the emergency response capabilities of TSA field officials. This
         strategy is disruptive to local transit police, who plan months in
         advance for major holidays and events, and in an emergency rely
         on backup from metropolitan police.

         TSA field officials said the initial exercises put their safety at risk.
         TSA required federal air marshals to wear raid jackets or shirts
         identifying them as air marshals, which potentially compromised
         their anonymity. In response to this concern, TSA changed the
         policy; federal air marshals now attend VIPR exercises in civilian
         clothes or jackets that simply identify them as DHS officials.
         Many TSIs also questioned TSA’s decision to place civilians in
         TSA raid jackets on the systems, because TSIs are unarmed and
         might become a target if mistaken for federal law enforcement
         officers. TSA screeners and behavioral detection officers deployed
         on VIPR teams face the same concern.

         The initial VIPR deployments caused logistical and operational
         problems for state and local homeland security officials and mass
         transit security officials. Many TSA employees on the VIPR
         teams had little or no experience on the transit systems on which
         they were deployed, and none had a prearranged means of
         communicating with transit security officers. Because most TSA
         employees did not have system-specific training and means of
         communication, local transit police had to reassign officers to
         accompany VIPR teams, who were sometimes confined to areas
         outside the transit rail systems, such as in adjacent parking lots. In
         many systems, a transit police officer was assigned to each TSA
         employee, both to provide a means of communication, and to
         respond if the TSA employee observed anything suspicious or
         interacted with a passenger. Assigning transit police to accompany
         TSA employees cost transit systems increased overtime expenses,
         which TSA did not reimburse.

         Federal air marshals were unfamiliar with local procedures and
         concerns. Some transit security officials reported that federal air
         marshals were unfamiliar with local laws, local police procedures,
         the range of behavior encountered on public transportation, and the
         parameters of their authority as federal law enforcement officers.
         In several cities, the VIPR deployments caused tensions between
         transit officials and police unions. Some police unions interpreted
         the introduction of VIPRs as replacing union transit police officers,
         or saw the TSA presence as an acknowledgement that the system


TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 28

         was hiring insufficient transit police to address genuine security
         needs.

         TSA headquarters, TSA field officials, and mass transit security
         officials disagreed over the placement and composition of the
         VIPR teams. TSA instructed its local officials to patrol designated
         stations, which conflicted with local strategies on police visibility
         and coverage. In one city, TSA chose lightly traveled stations
         although the transit police wanted them in the city center; in two
         other cities, TSA chose the largest stations in the system, which
         already had a heavy police presence. Some transit security
         authorities refused to accept the full complement of 42 TSA
         employees envisioned in the VIPR deployments, or refused to
         allow them into the transit systems.

         VIPR planning did not include sufficient local participation. TSA
         field officials and transit security officials said that the quality of
         TSA headquarters’ Concept of Operations, and its strategy of
         deploying VIPR teams without sufficient stakeholder consultation,
         demonstrated operational inexperience. Many TSA and transit
         system officials said that TSA did not have an effective feedback
         process to evaluate programmatic weaknesses. Though local TSA
         officials had a better understanding of the local environment,
         headquarters planned most of the exercises without participation
         from the field.

         Participants and outside observers questioned the value of VIPR
         exercises. In a July 11, 2007, letter to the Secretary of the
         Department of Homeland Security, the National President of the
         Federal Law Enforcement Officers Association described the
         VIPR exercises as “clearly a waste of scarce Federal Air Marshal
         resources.” TSIs also considered their participation in VIPR
         exercises unproductive. In our survey, we asked the TSIs to select
         the two duties they performed that they considered the least
         effective use of their time, and 70% selected VIPR exercises as one
         of the two. In their current configuration, for which the only
         visible TSA presence during VIPR exercises is unarmed TSIs and
         aviation screeners in raid jackets, VIPR teams may be less valuable
         to transit police than funding overtime pay for their officers.

         Improving the VIPR Program

         TSA headquarters officials responsible for the VIPR program were
         aware of criticisms of the July 4 holiday deployments, and
         developed an internal consultative process to restructure the VIPR
         program. They set up a Joint Coordination Center to facilitate

TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 29

         stakeholder communication and improve the scheduling of
         exercises. In September 2007, TSA convened a meeting of VIPR
         Joint Coordination Center personnel, TSNM Mass Transit
         personnel, Federal Air Marshals, TSIs, and mass transit security
         chiefs. This meeting resulted in the creation of mutually agreed
         upon nationwide operating guidelines for the VIPR program. TSA
         officials also improved stakeholder communication by giving
         presentations to mass transit security chiefs and providing better
         guidance to TSA field personnel about the objectives, execution,
         and resources of the VIPR program.

         In response to comments made by TSA officials during our exit
         conference in February 2008, we had follow-up discussions with
         TSA officials and stakeholders about the evolving nature of the
         VIPR program. TSA officials said that VIPR exercises are now
         voluntary and emphasized that transit systems may refuse to
         participate in any given deployment without losing eligibility for
         grant funding or future operational assistance. Local transit
         officials now decide where TSA will deploy VIPR teams and
         which elements of the VIPR model TSA will include. For
         example, transit officials could opt for just federal air marshals
         patrolling in plainclothes with local police, or just TSIs assisting
         local police with screening checkpoints. In most regions, transit
         officials now have a local TSA point of contact that will help plan
         and coordinate the exercises, and answer stakeholder questions.
         Some systems are now comfortable allowing experienced VIPR
         teams to patrol without the accompaniment of local transit police.
         Transit officials also confirmed that TSA is providing two weeks
         notice when it wishes to conduct an exercise, instead of the three to
         seven day notice that it gave in July and August 2007. This
         lengthened notification period is an acceptable compromise for
         many of the stakeholders.

         Despite these improvements, TSA needs to address some
         remaining system-specific coordination issues. Because of the
         problems encountered during the July 4 deployments, several mass
         transit security chiefs stated that they would not consider using
         VIPR teams in the future without a written agreement between
         their transit agency and TSA. TSA has a nationwide Concept of
         Operations document that contains general guidelines on the
         planning and execution of a VIPR deployment, and TSA works
         with participating stakeholders to develop detailed written
         operation plans for each specific VIPR deployment. However,
         TSA does not have written VIPR-related agreements with any
         major mass transit systems. TSA and a specific mass transit
         agency could structure these agreements to ease the stakeholder’s

TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 30

         concerns – such as training requirements, communication systems,
         and law enforcement authority – while still enabling VIPR
         deployments to be agile and unpredictable.

         The 9/11 Commission Act authorizes TSA to deploy VIPR teams,
         but it requires TSA to consult with local security and law
         enforcement officials to develop and agree upon appropriate
         operational plans, and provide relevant information before and
         during the deployment. Most mass transit system security officials
         welcome some form of TSA operational assistance, when that
         assistance is well planned and appropriate to local political
         conditions. While TSA has made progress in addressing the
         problems with early VIPR deployments, it still needs to develop a
         more formal collaborative relationship with local transit officials if
         its VIPR exercises are to enhance mass transit security.

         The National Explosives Detection Canine Team Program

         Stakeholders support TSA’s recent adaption of the NEDCTP to the
         rail environment. TSA provides participating mass transit agencies
         with a free canine and a $40,000 annual stipend for each handler.
         By absorbing a significant portion of the cost of each team, the
         program allows the transit agencies to direct financial resources
         toward other needs. Several agencies recognize the importance of
         TSA’s annual certification standards, because they help ensure that
         the dogs continue to perform. Agencies also appreciate that TSA
         recently modified the training facility and program to meet the
         needs of participants better. For example, TSA recently built a
         mock rail station and began offering short “executive courses” that
         were directed at the handlers’ commanding officers.

         Most stakeholders consider TSA’s training program excellent, but
         view the requirement to send officers to a ten-week training course
         in Texas as burdensome. Transit agencies have to pay overtime to
         backfill for the officer who is at training, which could create a
         financial liability for some transit agencies. Experienced canine
         handlers who participate in the program are required to attend for
         the full ten weeks, even though they already possess many of the
         skills that the training teaches. Furthermore, the most qualified
         officers selected as handler candidates are not always willing to
         leave their homes and families for such an extended period. While
         most transit agencies look past these issues, we did learn of two
         agencies that do not participate in the program for this reason.

         The certification and recertification process for TSA canines is
         very strict, and can sometimes cause coordination problems

TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 31

         between TSA and local canine teams. There is no single national
         standard for explosive detecting canines; individual federal and
         state programs decide which standards, if any, they will use. In
         states without standards, many transit agencies praise the TSA
         program because a TSA canine’s performance is independently
         verifiable while a local canine’s performance is not. However, in
         states with existing explosive detection standards, TSA standards
         may conflict with local standards. This complicates integrated
         training exercises with both TSA canines and transit agency
         canines because teams may have to train differently. Again, most
         transit agencies are willing to work through these issues, but
         national, verifiable standards for canine explosive detection teams
         would alleviate some of these problems.

         Small transit agencies without existing canine programs face
         extensive additional start-up costs. TSA covers the cost of
         acquiring the canine and training the team, and provides a $40,000
         stipend. However, when beginning a program, an agency must
         also spend money on its first kennels, canine-ready vehicles, and
         secure containers for storing explosive training materials. In
         systems that receive several canines, these costs can be as much as
         $300,000. Most transit agencies that participate in the TSA
         program are large agencies that had a pre-existing explosive
         detection program, and therefore had already invested in these
         start-up capital expenditures. However, agencies with limited
         resources might elect not to join TSA’s program because of the
         additional start-up expenditures. As TSA expands the NEDCTP, it
         should provide additional start-up grant funds for agencies without
         existing canine explosive detection units.

         The 9/11 Commission Act states that TSA should develop a
         certification program for non-TSA explosive dogs, and encourages
         TSA to explore ways to expand its canine explosive detection
         units. Transit systems that participate in the program are pleased
         with the canines they receive and with TSA’s ongoing certification
         program. Any measures TSA can take to make this program more
         widely available would contribute to mass transit rail security.


Recommendations
         We recommend that the Administrator of the Transportation
         Security Administration:

         Recommendation #6: Seek Memorandums of Agreement with all
         relevant transit authorities regarding VIPR deployments. These

TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 32

         Memorandums of Agreement should: describe a Concept of
         Operations or Standard Operating Procedure for both planned and
         unforeseen events; explain how TSA personnel will communicate
         with transit authorities and other local law enforcement; and
         identify the legal authorities that VIPR team members will have in
         the event of an emergency. The Memorandums of Agreement
         should specify that participation in VIPR exercises is voluntary
         and at the request of the local transit authority.

         Recommendation #7: Revise grant program eligibility criteria to
         allow start-up funds for mass transit systems that do not already
         have a canine explosive detection unit.


Management Comments and OIG Analysis

         TSA’s Comments to Recommendation #6:

         TSA concurred in part with this recommendation. TSA agreed that
         much of the requested information set forth in this
         recommendation was valuable, which was why the information
         was included in the nationwide concept of operations document
         and the individual operations plans that were written before each
         VIPR deployment. TSA also stated that a formal Memorandum of
         Agreement for each individual VIPR deployment would hinder
         VIPR performance and diminish the overall effectiveness of the
         program. TSA did not agree with our recommendation that the
         Memorandum should specify that the local transit authority should
         initiate VIPRs. TSA asserted that there was no legal requirement
         for VIPRs to be stakeholder driven, and such a requirement would
         limit TSA’s options.

         TSA stated that the remainder of the material that we
         recommended be codified in a memorandum is already part of the
         VIPR planning and deployment process, and specifically included
         in the concept of operations document. TSA stated that it also
         disseminated information to TSA field personnel and mass transit
         stakeholders about the planning and conduct of VIPR operations.

         OIG Analysis: We consider these actions partially responsive to
         the intent of the recommendation, but maintain that TSA should
         enter into a written agreement with each transit agency that hosts
         VIPR deployments. This would give mass transit agencies
         confidence that their concerns have been formally addressed.



TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 33

         We are not suggesting that TSA must develop a Memorandum of
         Agreement for each individual VIPR deployment. As TSA pointed
         out, such a requirement would be an unnecessary administrative
         burden. We also concur that a one-size-fits-all approach is neither
         advisable nor effective. The VIPR concept of operations
         document, however, is a one-size-fits-all document; it applies to all
         VIPR exercises and all mass transit agencies. Conversely, the
         individual operations plans are detailed, specific descriptions of
         how a VIPR team will conduct a single deployment, and they do
         not contain high-level information about the nature of VIPR on
         that transit system. Both of these documents are useful, but neither
         provides a description of how VIPR deployments, in general, will
         be conducted within a specific mass transit agency.

         Our recommendation aims to address this gap by suggesting TSA
         and transit systems create a formal agreement that defines VIPR in
         that system. Some major mass transit systems will not permit
         VIPR exercises on their premises because they believe there are
         important, unresolved legal issues. In addition, without formal
         acknowledgement that VIPRs are voluntary, we share stakeholder
         concerns that VIPR deployments might once again be conducted
         without stakeholder consent or advanced notification Even when
         intelligence indicates heightened threat on a particular system,
         TSA should approach the transit authority and let them decide
         whether a VIPR deployment is warranted.

         In its action plan, TSA should provide additional information that
         demonstrates it has given individual mass transit systems the
         option of a written agreement governing VIPR operations.

         This recommendation is Unesolved - Open.

         TSA’s Comments to Recommendation #7:

         TSA concurred with our recommendation. The Transit Security
         Grant Program allows eligible mass transit agencies to apply for
         $150,000 per team per year for start-up and sustainment costs.
         Agencies that train and certify under the NECDTP are not eligible
         to receive this grant funding. However, agencies participating in
         the NECDTP do receive $40,000 per team per year to cover
         sustainment costs.

         OIG Analysis: We consider these actions partially responsive to
         our recommendation. TSA did not provide details of its future
         plans. We are recommending that transit agencies without existing
         canine programs, including those agencies that participate in the

TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 34

         NECDTP, be eligible for grant funds to cover some of their start-
         up costs. We do not expect that every participating agency will
         need supplemental start-up funds, but it is important that
         participation in the NECDTP does not exclude agencies from
         requesting necessary funds.

         In its action plan, TSA should provide revised grant guidance that
         allows new participants in the NECDTP to apply for start-up funds
         for their program.

         This recommendation is Resolved - Open.




TSA’s Administration and Coordination of Mass Transit Security Programs


                                Page 35

Appendix A
Purpose, Scope, and Methodology

Appendix A:        Purpose, Scope, and Methodology
                      The purpose of our review was to evaluate TSA’s four largest
                      oversight and assistance programs for mass transit rail: the Surface
                      Transportation Security Inspection Program, the Transit Security
                      Grant Program, the Visible Intermodal Prevention and Response
                      program, and the National Explosives Detection Canine Team
                      Program. Our goal was to evaluate how well TSA managed these
                      programs and how well the programs met the security needs of the
                      major mass transit rail systems.

                       The 9/11 Commission Act, which was enacted shortly after we
                       began our review, introduced new mass transit rail standards and
                       responsibilities for TSA. Where we obtained information on the
                       current status of TSA compliance with standards introduced by the
                       9/11 Commission Act, we have included it in our report.

                       The scope of this review is limited to the four TSA programs listed
                       above. The review does not encompass TSA’s responsibilities for
                       freight rail and for intercity passenger rail, or for other forms of
                       mass transit, such as buses. The review therefore does not reflect
                       the full range of responsibilities of the TSA officials who manage
                       mass transit rail programs. We did not review TSA’s strategic and
                       long-term rail security initiatives, such as refining TSA’s approach
                       to risk management, developing TSA’s intelligence sources and
                       analysis, or identifying rail-specific research and development
                       technology projects. Our conclusions about TSA’s administrative
                       and management challenges should not be generalized to include
                       any of these programmatic areas.

                       We conducted our fieldwork from June 2007 to October 2007.
                       While we recognized that each of the four programs under review
                       was developed and implemented on short timelines and
                       represented a significant new contribution to mass transit rail
                       security, our review focused on the current status of the four
                       programs. In the case of the VIPR program, TSA introduced
                       major changes to the program after the period of our review.
                       Therefore, we followed up with appropriate program officials and
                       incorporated the result of those discussions in our report.

                       During the period from June 2007 to October 2007, we
                       interviewed more than 100 individuals involved in the security of
                       the nation’s passenger rail system. We interviewed representatives
                       from TSA’s Office of Transportation Sector Network
                       Management, Office of Law Enforcement, and Office of Field
                       Operations. We also interviewed federal air marshals,
                       transportation security officers, canine program coordinators, and

              TSA’s Administration and Coordination of Mass Transit Security Programs


                                              Page 36

Appendix A
Purpose, Scope, and Methodology

                     federal security directors. We spoke with more than one-fourth of
                     the 88 TSIs. Using a website, we also surveyed TSIs on the
                     various aspects of the Surface Transportation Security Inspection
                     Program. Of the 88 current TSIs who received the survey, 83
                     replied. Survey respondents could remain anonymous, but many
                     identified themselves and volunteered for follow-up telephone
                     interviews. We also spoke with officials from DOT Federal
                     Transit Administration, DOT Federal Railroad Administration,
                     DOT Office of Inspector General, DHS Science and Technology,
                     DHS National Preparedness Directorate, FEMA National
                     Preparedness Directorate, and the Government Accountability
                     Office.

                     We spoke with officially designated TSA primary or alternate
                     security coordinators for the mass transit systems under review, as
                     well as other officials responsible for security and grants
                     coordination. The systems reviewed account for 85% of all
                     passenger rail ridership in the United States. These included the
                     systems listed below:

                         •	 New York Metropolitan Transit Administration (MTA),
                         •	 Port Authority Trans-Hudson (PATH),
                         •	 Washington Metropolitan Area Transportation Authority
                            (WMATA),
                         •	 Chicago Transit Authority (CTA),
                         •	 Northeast Illinois Regional Commuter Railroad 

                            Corporation (Metra), 

                         •	 Massachusetts Bay Transportation Authority (MBTA),
                         •	 Bay Area Rapid Transit (BART),
                         •	 San Francisco Municipal Transportation Agency (Muni),
                         •	 San Mateo County Transportation Authority (Caltrain), and
                         •	 Metropolitan Transit Authority of Harris County, Texas.

                     We also interviewed state homeland security officials for the
                     regions with major mass transit systems, to discuss both the grant
                     process and their overall relationship with TSA on mass transit rail
                     security.

                     We also interviewed representatives from national transit
                     stakeholder entities including Amtrak Office of Inspector General,
                     the American Public Transportation Association, the Association
                     of American Railroads, and the Amalgamated Transit Union.

                     In addition to testimonial evidence from interviews with subject
                     matter experts, we requested and reviewed documentation from

            TSA’s Administration and Coordination of Mass Transit Security Programs


                                            Page 37

Appendix A
Purpose, Scope, and Methodology

                     TSA, as well as documentation provided by our interview subjects
                     and obtained from public sources. This documentation includes:

                         •	 Laws, regulations, security directives, and court decisions
                            relevant to mass transit rail, and federal authorities and
                            responsibilities
                         •	 Public comments to the Notice of Proposed Rulemaking on
                            Rail Transportation Security, 49 CFR Parts 1520 and 1580
                         •	 Memorandums of Understanding between TSA and the
                            Department of Transportation, and relevant Annexes
                         •	 Memorandums and organizational charts documenting
                            reorganizations and personnel changes within TSA
                         •	 Budget documents for TSA programs under review
                         •	 TSNM Integration grant information, including lists of
                            stakeholder outreach communications and meetings, project
                            proposals submitted by Tier I stakeholders, grant guidance
                            and grant application kits, an overview on the use of
                            cooperative agreements, documentation of grant decisions
                            made by review panels, and grant allocation and dispersal
                            timelines
                         •	 Documentation on the VIPR program, including citations to
                            the arrest authority of Federal Air Marshals, policy
                            memorandums and planning documents, concept of
                            operations documents, and lists of VIPR deployments on
                            mass transit rail
                         •	 Documentation on the TSA canine program
                         •	 Classified material generated by TSA related to mass
                            transit rail security
                         •	 Training materials developed for an introductory rail course
                            for Federal Security Directors
                         •	 Training materials and guidance developed for TSIs,
                            including operational guidance, standard operating
                            procedures, legal authorities, historical context,
                            technologies, and duties and responsibilities of federal
                            employees
                         •	 Sample BASE assessments, Station Profiles, Toxic
                            Inhalation Hazards assessments, and other assessment
                            tools, including their underlying legal authorities,
                            operational guidance, and worksheets
                         •	 Sample weekly status reports on the activities of TSIs,
                            including stakeholder liaison meetings, assessment site
                            visits, trainings attended and provided, liaison with State
                            Safety Oversight Agency inspectors and Department of
                            Transportation rail inspectors


            TSA’s Administration and Coordination of Mass Transit Security Programs


                                            Page 38

Appendix A
Purpose, Scope, and Methodology

                         •	 Memorandums, letters, and other documentation provided
                            to the Office of Inspector General by TSA employees, law
                            enforcement officers, organizations and associations
                            involved in mass transit at the national level, and state and
                            mass transit officials

                     This review was conducted under the authority of the Inspector
                     General Act of 1978, as amended, and according to the Quality
                     Standards for Inspections, issued by the President’s Council of
                     Integrity and Efficiency.




            TSA’s Administration and Coordination of Mass Transit Security Programs


                                            Page 39

Appendix B
Management Comments to the Draft Report

Appendix B:        Management Comments to the Draft Report
                     TSA provided extensive comments on its overall impressions of
                     the report as well as specific responses to each recommendation.
                     TSA concurred with and has already taken steps to address many
                     of the issues raised in our report. However, TSA perceived that
                     our scope was too narrow; that we did not grasp the enormity of
                     TSA’s program or give enough credit to TSA; and that we made
                     overly broad conclusions about TSA’s transit security strategy.
                     TSA asserted that the report did not provide sufficient historical
                     context or recognize recent and prior achievements; did not
                     account for the multi-faceted means by which policymakers
                     communicate with transportation security inspectors; and that we
                     erroneously extrapolated issues to reach broad conclusions about
                     the agency’s entire mass transit security portfolio.

                       TSA appears to have misunderstood our scope, and therefore,
                       misinterpreted many of our conclusions. Our scope was limited to
                       evaluating four oversight and assistance programs, yet TSA
                       attempted to highlight gaps between conclusions about those
                       programs and the full breadth of its mass transit security initiatives.
                       Our goal was to evaluate how well TSA managed these programs
                       and how well the programs met the security needs of the major
                       mass transit rail systems. Our report identified areas of TSA
                       responsibility that we deliberately did not include in this review—
                       such as freight rail, intercity passenger rail, or buses—and noted
                       that our conclusions did not reflect the full range of responsibilities
                       of the TSA officials who manage mass transit rail programs.
                       Furthermore, the report cautions that our conclusions about TSA’s
                       administrative and management challenges should not be
                       generalized to include any of these programmatic areas. In light of
                       such scope limitations, we did not make broad judgments on the
                       effectiveness of the administration and coordination of the entire
                       mass transit and passenger rail security program, as TSA suggests.

                       TSA asserted that the report focused exclusively on a four-month
                       period. The bulk of our fieldwork occurred from July 2007 to
                       October 2007 but our research was not limited to this timeframe.
                       In fact, that research plus dialogue with TSA officials who
                       provided additional information about TSA’s recent progress, led
                       to many revisions to our draft report.

                       TSA also commented that our report did not address changes made
                       since the Government Accountability Office’s September 2005
                       report. We did not focus on whether TSA implemented the
                       Government Accountability Office’s recommendations because,
                       prior to the start of our review, the Government Accountability

              TSA’s Administration and Coordination of Mass Transit Security Programs


                                              Page 40

Appendix B
Management Comments to the Draft Report

                    Office initiated a comprehensive follow up review. We
                    coordinated with the Government Accountability Office to avoid
                    redundancy.

                    Whether TSA is engaging or communicating with mass transit and
                    passenger rail agencies was never in question during our review.
                    We applaud TSA for the sheer volume of its stakeholder outreach.
                    However, although informative, TSA’s discussion of how
                    headquarters personnel communicate with its inspectors did not
                    eliminate our concerns about the effectiveness of these efforts. It
                    is not clear whether TSA management fully understands how the
                    inspectors see this issue and whether it has sufficiently addressed
                    this matter. As recently as May 2008, we received reports of
                    inadequate communication from TSA headquarters personnel to
                    TSIs in the field.

                    We reported that only 29% of TSIs said that state officials and
                    transit authorities perceive that there is cooperation and
                    coordination between TSA headquarters and TSIs. When asked
                    whether TSA headquarters personnel included local TSIs in
                    planning and holding meetings in their jurisdiction, only 19% of
                    TSIs agreed.

                    TSA also stated that the report failed to address progress in the
                    VIPR program. In fact, the report specifically addresses how TSA
                    has improved the VIPR program over the past year, and describes
                    many of the “lessons learned” from the July 2007 deployments.
                    For several of the transit agencies that we spoke with, the July
                    2007 deployments were their first interaction with the VIPR
                    program, and the size and number of the deployments was
                    unprecedented. For this reason, we closely examined the July
                    2007 deployments and the problems that occurred.

                    We focused on the status of these programs and as a result,
                    identified concerns regarding chain of command, unclear missions,
                    and insufficient communication. Although these are TSA’s four
                    largest oversight and assistance mass transit programs, we did not
                    portray these concerns as systemic. We did not intend to downplay
                    what the programs have accomplished, but instead identify
                    challenges that exist in their execution. Despite TSA’s progress as
                    a whole, these issues are undermining agency efforts to advance
                    mass transit security.

                    The following is TSA’s written response to our report.



           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 41

Appendix B
Management Comments to the Draft Report

                Management’s Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 42

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 43

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 44

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 45

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 46

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 47

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 48

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 49

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 50

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 51

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 52

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 53

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 54

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 55

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 56

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 57

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 58

Appendix B
Management Comments to the Draft Report




           TSA’s Administration and Coordination of Mass Transit Security Programs


                                           Page 59

Appendix C
BASE Assessment Criteria

Appendix C: BASE Assessment Criteria
                          TSA Baseline Assessment for Security Enhancement (BASE)
                                                  Criteria
                 1    Establish written security programs and emergency management plans
                 2    Define roles and responsibilities for security and emergency management
                 3    Ensure that operations and maintenance supervisors, forepersons, and
                      management are held accountable for security issues under their control
                4     Coordinate Security and Emergency Management Plan(s) with local and
                      regional agencies
                5     Establish and maintain a Security and Emergency Training Program
                6     Establish plans and protocols to respond to the DHS Homeland Security
                      Advisory System threat levels
                7     Implement and reinforce a Public Security and Emergency Awareness
                      Program
                8     Conduct tabletop and functional drills
                9     Establish and use a risk management process to assess and manage
                      threats, vulnerabilities and consequences
               10     Establish and use an information sharing process for threat and
                      intelligence information.
               11     Establish and use a reporting process for suspicious activity (internal and
                      external)
               12     Control access to security critical facilities with ID badges for all visitors,
                      employees, and contractors
               13     Conduct physical security inspections
               14     Conduct background investigations of employees and contractors
               15     Control access to documents of security-critical systems and facilities
               16     Ensure existence of a process for handling and access to Sensitive
                      Security Information
               17     Conduct Security Plan Audits
            Source: TSA BASE Template




            TSA’s Administration and Coordination of Mass Transit Security Programs

                                              Page 60
Appendix D
Transit Security Fundamentals and Grant Priorities

Appendix D:        Transit Security Grant Priorities
                       Transportation Sector-Specific Implementation Plan
                       (from the Transportation Sector-Specific Mass Transit Modal Annex,
                       May 5, 2007, pg. 32-33)

                       1. Protection of high risk/high consequence underwater and
                       underground rail assets.
                       Many of the nation’s largest transit systems have significant track
                       miles and large concentrations of riders in rail systems that run
                       underground and underwater. It is the highest priority of the FY07
                       [Transit Security Grant Program] to support measures that will
                       protect underground rail system assets, and particularly underwater
                       assets, from terrorist attack by improvised explosive devices
                       (IEDs) or other threats that can damage or significantly breach
                       such assets. Active coordination and regular testing of emergency
                       evacuation plans can greatly reduce loss of life in serious incidents.

                       2. Protection of other high risk/high consequence assets and
                       systems that have been identified through system-wide risk
                       assessments.
                       It is imperative that transit agencies focus countermeasure
                       resources on their highest risk, highest consequence areas or
                       systems. The [Transit Security Grant Program] will particularly
                       support development and enhancement of capabilities to prevent,
                       detect and respond to terrorist attacks employing chemical,
                       biological, radiological, nuclear and explosive (CBRNE) weapons,
                       particularly IEDs. For example, a system-wide assessment may
                       highlight the need to segregate critical security infrastructure from
                       public access. One solution could be an integrated intrusion
                       detection system, controlling access to these critical facilities or
                       equipment. Transit systems should consider security technologies
                       to help reduce the burden on security manpower. Using smart
                       [closed circuit television] systems in remote locations could help
                       free up security patrols to focus on more high-risk areas.

                       3. Use of visible, unpredictable deterrence.
                       Visible and unpredictable security activities instill confidence and
                       enhanced security awareness in the riding public, and deter attacks
                       by disrupting the ability of terrorists to prepare for and execute
                       attacks. Examples include the acquisition, training, and
                       certification of explosives detection canine teams; training of law
                       enforcement, security officials and frontline employees in
                       behavioral pattern recognition; and procurement of mobile
                       detection or screening equipment to identify the presence of
                       explosives or their residue and other suspicious items on persons or
                       in packages.

              TSA’s Administration and Coordination of Mass Transit Security Programs


                                              Page 61

Appendix D
Transit Security Fundamentals and Grant Priorities

                     4. Targeted counter-terrorism training for key front-line staff.
                     Effective employee training programs address individual employee
                     responsibilities and provide basic security awareness to front line
                     employees, including equipment familiarization, assessing and
                     reporting incident severity, appropriate responses to protect self
                     and passengers, use of protective devices, crew communication
                     and coordination, and incident evacuation procedures. For
                     example, well trained and rehearsed operators can help ensure that
                     if an underground station has suffered a chemical agent attack,
                     trains – and the riding public – are quickly removed from the
                     scene, thus reducing their exposure and risk.

                     5. Emergency preparedness drills and exercises.
                     In order to assess and enhance a system’s capability to respond
                     under the variety of serious incidents, transit agencies are
                     encouraged to maintain an emergency drill and exercise program
                     to test key operational protocols including coordination with first
                     responders. The [Transit Security Grant Program] can support
                     exercises related to terrorist attack scenarios (such as IED or
                     CBRNE attacks), natural disasters and other emergencies. Such
                     programs can take various forms, from tabletop exercises to more
                     comprehensive multi-agency full-scale exercises. [Transit Security
                     Grant Program] funds also support rigorous after action
                     assessments to identify further system improvements.

                     6. Public awareness and preparedness campaigns.
                     A public awareness and preparedness program can employ
                     announcements, postings in stations and transit vehicles or other
                     media to ensure awareness of heightened alert or threat conditions.
                     Effective awareness programs enlist the public in becoming an
                     informal part of an agency security plan. They should explain
                     specific actions the public can take to contribute to strengthening
                     system security.

                     7. Efforts in support of the national preparedness architecture.
                     Transit agencies are encouraged to take steps to embrace the
                     national preparedness architecture priorities, several of which have
                     already been highlighted as [Transit Security Grant Program]
                     priorities. The following six national priorities are particularly
                     relevant: expanding regional collaboration; implementing the
                     National Incident Management System, the National Response
                     Plan and the National Infrastructure Protection Plan; strengthening
                     information sharing and collaboration capabilities; enhancing
                     interoperable communications capabilities; strengthening CBRNE
                     detection and response capabilities; and improving citizen
                     preparedness capabilities.
            TSA’s Administration and Coordination of Mass Transit Security Programs


                                            Page 62

Appendix E
Highlights of TSI Survey

Appendix E:        Highlights of TSI Survey

                          My mission and my role as a Surface Transit Security Inspector
                          are clearly defined

                          Strongly Agree (3) / Agree (22)                       25        30%
                          No Opinion (4)                                         4         5%
                          Disagree (34) / Strongly Disagree (19)                53        64%
                          Do Not Know / N/A (1)                                  1         1%
                          All                                                   83       100%

                          The chain of command to my superiors is clearly
                          defined
                          Strongly Agree (12) / Agree (16)            28                  34%
                          No Opinion                                    3                  4%
                          Disagree (24) / Strongly Disagree (28)      52                  63%
                          Do Not Know / N/A                             0                  0%
                          All                                         83                 100%

                          My daily responsibilities/duties as a Surface Transportation
                          Security Inspector closely match what I expected before I
                          accepted this position

                          Strongly Agree (2) / Agree (22)                       24        29%
                          No Opinion                                             8        10%
                          Disagree (29) / Strongly Disagree (22)                51        61%
                          Do Not Know / N/A                                      0         0%
                          All                                                   83       100%

                          When conducting on-site assessments, security reviews, and
                          station profiles, local transit authorities provide me the access
                          and information that I need.

                          Strongly Agree (22) / Agree (52)                      74        89%
                          No Opinion                                             1         1%
                          Disagree (3) / Strongly Disagree (3)                   6         7%
                          Do Not Know / N/A                                      2         2%
                          All                                                   83       100%

                          In order to do my job effectively, I require the authority to make
                          unannounced inspections of rail yards and transit
                          stations/facilities.
                          Strongly Agree (51) / Agree (21)                  72            87%
                          No Opinion                                         1             1%
                          Disagree (6) / Strongly Disagree (3)               9            11%
                          Do Not Know / N/A                                  1             1%
                          All                                               83           100%




              TSA’s Administration and Coordination of Mass Transit Security Programs


                                              Page 63

Appendix E
Highlights of TSI Survey



                         In order to do my job effectively, I require the authority to issue
                         citations for violations of security regulations.

                         Strongly Agree (36) / Agree (34)                      70         84%
                         No Opinion                                             3          4%
                         Disagree (6) / Strongly Disagree (3)                   9         11%
                         Do Not Know / N/A                                      1          1%
                         All                                                   83        100%

                         Local transit authorities use and value the assessments and
                         evaluations that I have performed.

                         Strongly Agree (19) / Agree (43)                      62         75%
                         No Opinion                                             5          6%
                         Disagree (5) / Strongly Disagree (6)                  11         13%
                         Do Not Know / N/A                                      5          6%
                         All                                                   83        100%

                         I have raised security concerns to local transit authorities,
                         which they have subsequently addressed or attempted to
                         address.
                         Strongly Agree (14) / Agree (42)                 56              67%
                         No Opinion                                        8              10%
                         Disagree (10) / Strongly Disagree (1)            11              13%
                         Do Not Know / N/A                                 8              10%
                         All                                              83             100%

                         I have sufficient direction and information from my superiors,
                         including local Federal Security Directors and TSA
                         Headquarters personnel, to do my job effectively

                         Strongly Agree (4) / Agree (21)                       25         30%
                         No Opinion                                            12         14%
                         Disagree (23) / Strongly Disagree (23)                46         55%
                         Do Not Know / N/A                                      0          0%
                         All                                                   83        100%

                         I feel that TSA headquarters uses the information that I provide
                         to make policy decisions or prioritize grant decisions.
                         Strongly Agree (5) / Agree (29)                       34         41%
                         No Opinion                                            10         12%
                         Disagree (14) / Strongly Disagree (15)                29         35%
                         Do Not Know / N/A                                     10         12%
                         All                                                   83        100%




             TSA’s Administration and Coordination of Mass Transit Security Programs


                                             Page 64

Appendix E
Highlights of TSI Survey



                         When TSA headquarters officials conduct meetings with transit
                         security stakeholders in my jurisdiction, Surface Transportation
                         Security Inspectors assist with the preparation and are included
                         in the meetings.

                         Strongly Agree (2) / Agree (14)                       16        19%
                         No Opinion                                             8        10%
                         Disagree (24) / Strongly Disagree (28)                52        63%
                         Do Not Know / N/A                                      7         8%
                         All                                                   83       100%

                         Stakeholders, including state officials and transit authorities,
                         perceive that there is cooperation and coordination between
                         TSA headquarters and Surface Transportation Security
                         Inspectors in the field.

                         Strongly Agree (6) / Agree (18)                       24        29%
                         No Opinion                                            17        20%
                         Disagree (19) / Strongly Disagree (14)                33        40%
                         Do Not Know / N/A                                      9        11%
                         All                                                   83       100%

                         My various supervisors (Federal Security Directors in the field
                         and TSA headquarters officials) coordinate well with each other
                         when setting my priorities.

                         Strongly Agree (2) / Agree (14)                       16        19%
                         No Opinion                                            10        12%
                         Disagree (21) / Strongly Disagree (33)                54        65%
                         Do Not Know / N/A                                      3         4%
                         All                                                   83       100%




             TSA’s Administration and Coordination of Mass Transit Security Programs


                                             Page 65

Appendix F
Major Contributors to this Report

Appendix F:   Major Contributors to this Report
                    William McCarron, Chief Inspector, Department of Homeland
                    Security, Office of Inspections

                       Lorraine Eide, Senior Inspector, Department of Homeland
                       Security, Office of Inspections

                       Preston Jacobs, Inspector, Department of Homeland Security,
                       Office of Inspections

                       Tristan Weir, Inspector, Department of Homeland Security, Office
                       of Inspections




              TSA’s Administration and Coordination of Mass Transit Security Programs


                                              Page 66

Appendix G
Report Distribution

Appendix G: Report Distribution
                   Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      DHS Component Liaison
                      Administrator, Transportation Security Administration
                      TSA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner


                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




            TSA’s Administration and Coordination of Mass Transit Security Programs


                                            Page 67

Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building
           410, Washington, DC 20528,

The OIG seeks to protect the identity of each writer and caller.




          TSA’s Administration and Coordination of Mass Transit Security Programs

                                          Page 68
